HHS/OIG-Audit--"Follow-up Review of State Agency Comments on Audit of Title IV-E Payments to Child Placing Agencies, Indiana Family and Social Services Administration, (A-05-97-00056)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
Follow-up Review of State Agency Comments on Audit of Title IV-E Payments
to Child Placing Agencies, Indiana Family and Social Services Administration
(A-05-97-00056)
September 24, 1997
Complete Text of Report is available in PDF format
(323 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides you with our analysis of additional comments, dated August
7, 1997, we received from the Indiana Family and Social Services Administration
(State agency) in reference to the above audit of Title IV-E payments made to
child placing agencies in Indiana. The State agency's additional comments followed
their interim response which was appended to our final report (CIN: A-05-96-00055),
issued on June 27, 1997. The State agency has not provided any additional information
that would cause us to change our recommendations.